HHS/OIG-Audit--"Office of Inspector General Concerns Pertaining to SafeguardOver Medicaid Managed Care Programs, (A-03-93-00200)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Office of Inspector General Concerns Pertaining to Safeguards Over Medicaid Managed Care Programs," (A-03-93-00200)
August 27, 1993
Complete
Text of Report is available in PDF format (2.92 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that there is a need for improved safeguards over Medicaid managed care programs to reduce
the risk of insolvency, some of the practices that oftentimes lead to insolvency, and poor quality of care.